Q@OQCKLE

Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-6887
HARRY FRANKLIN PHILLIPS,
Petitioner,
%.
STATE OF FLORIDA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
THE ARC OF THE UNITED STATES, THE NATIONAL DISABILITY RIGHTS NETWORK,
DISABILITY RIGHTS FLORIDA, THE BAZELON CENTER FOR MENTAL HEALTH LAW,
AND THE CENTER FOR PUBLIC REPRESENTATION IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4887 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 16th day of February, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY- hen mane, | of Nebraska z Chk
RENEE J. GOSS ‘

hen mane, | My Comm. Exp. September 5, 2023
Notary Public Affiant 40615
